Kurschinske v. Pennsylvania

CERTIFICATE OF WORD COUNT
No. TBD
Virginia A. Kurschinske
Petitioner (s)
v.
State of Pennsylvania, Respondents (s)
John P. Kulzer, Assistant D. A. Crawford County
Commonwealth Court.
Respondent (s)

State of Pennsylvania
County of Crawford
Being duly sworn, I depose and say:
1). That I am over the age of 18 years and I am a party to this action. I
am the prepares of the document, with mailing address at 11838
Patterson Road, Titusville, Pa. 16354. That is required by the Supreme
Court Rule 33.1 (h), I certify that PETITION FOR WRIT OF CERTIORARI is 3,407
words, contains 15 pages of non-exempted and includes the 16th page
exempted, by Supreme Court Rule 33.1 (d), 12 point in Century.
I declare under penalty of perjury that the foregoing is true and correct.

Virginia A. Kurschinske, prose
skylerl 1838@gmail.com
Date
page 17

